     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region VII
                                                                          601 East 12th Street, Room 0429
                                                                          Kansas City, MO 64106



May 5, 2010

Report Number: A-07-09-00314

Ms. Sandy Coston
President and Chief Executive Officer
First Coast Service Options, Inc.
532 Riverside Avenue
Jacksonville, FL 32202

Dear Ms. Coston:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Segment Postretirement Benefit Assets
of First Coast Service Options, Inc., for the Period January 1, 2005, to January 1, 2008. We
will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00314
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Ms. Sandy Coston


Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
   Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL


  REVIEW OF MEDICARE SEGMENT
POSTRETIREMENT BENEFIT ASSETS OF
FIRST COAST SERVICE OPTIONS, INC.,
FOR THE PERIOD JANUARY 1, 2005, TO
         JANUARY 1, 2008




                        Daniel R. Levinson
                         Inspector General

                            May 2010
                          A-07-09-00314
                        Office of Inspector General
                                            http://oig.hhs.gov




The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

CMS reimburses a portion of contractors’ costs for postretirement benefit (PRB) plans. In
claiming these costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation and applicable Cost Accounting Standards, as required by the
Medicare contracts.

FCSO participates in a voluntary employee benefit association trust for the purpose of funding
annual PRB accruals. Furthermore, FCSO’s accounting practice uses segmented accrual
accounting for PRBs.

In resolution of our prior PRB segmentation audit, FCSO executed a PRB closing agreement
with CMS to establish a final settlement of the January 1, 2005, Medicare segment PRB asset
base. As required by its accounting practice, FCSO also updated the Medicare segment’s PRB
assets to January 1, 2008.

OBJECTIVE

Our objective was to determine whether FCSO correctly:

   •   implemented the January 1, 2005, Medicare segment PRB asset base established by the
       executed PRB closing agreement with CMS, and

   •   updated the Medicare segment’s PRB assets from January 1, 2005, to January 1, 2008.

SUMMARY OF FINDINGS

FCSO correctly implemented the January 1, 2005, Medicare segment PRB asset base established
by the executed PRB closing agreement with CMS. However, FCSO did not correctly update
the Medicare segment’s PRB assets from January 1, 2005, to January 1, 2008. As part of its
accounting practice, FCSO was required to update the Medicare segment’s PRB assets.
However, FCSO made errors in its update computations. As a result, FCSO overstated the
Medicare segment PRB assets as of January 1, 2008, by $835,995. In addition, contrary to its
stated methodology, FCSO did not make adjustments for participants who transferred into and
out of the Medicare segment. Although we determined that this error had no material effect
during our review period, future asset updates may be materially misstated if FCSO does not
properly adjust for transfers.




                                                i
RECOMMENDATIONS

We recommend that FCSO:

   •   decrease Medicare segment PRB assets by $835,995 as of January 1, 2008, and

   •   make adjustments for participant transfers in future updates.

AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our finding and stated that it will
implement our recommendations. FCSO’s comments are included in their entirety as
Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

       BACKGROUND ................................................................................................................1
           First Coast Service Options, Inc., and Medicare ....................................................1
           Federal Regulations ................................................................................................1

       OBJECTIVE, SCOPE, AND METHODOLOGY ..............................................................1
            Objective .................................................................................................................1
            Scope .......................................................................................................................2
            Methodology ...........................................................................................................2

FINDINGS AND RECOMMENDATIONS ............................................................................3

       POSTRETIREMENT BENEFIT CLOSING AGREEMENT .............................................4

      UPDATE OF MEDICARE SEGMENT POSTRETIREMENT BENEFIT ASSETS .........4
          Federal Requirements ..............................................................................................4
          Contributions and Transferred Prepayment Credits Overstated ..............................4
          Earnings, Net Expenses Overstated .........................................................................4
          Participant Transfers ................................................................................................4

      RECOMMENDATIONS .....................................................................................................5

      AUDITEE COMMENTS.....................................................................................................5

APPENDIXES

      APPENDIX A: STATEMENT OF MARKET VALUE OF POSTRETIREMENT
                  BENEFIT ASSETS FOR FIRST COAST SERVICE OPTIONS, INC.,
                  FOR THE PERIOD JANUARY 1, 2005, TO JANUARY 1, 2008

      APPENDIX B: AUDITEE COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

First Coast Service Options, Inc., and Medicare

During our audit period, First Coast Service Options, Inc. (FCSO), administered Medicare Part A
and Part B operations under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services (CMS).

CMS reimburses a portion of contractors’ costs for postretirement benefit (PRB) plans. In
claiming these costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation (FAR) and applicable Cost Accounting Standards (CAS), as
required by the Medicare contracts.

FCSO participates in a voluntary employee benefit association (VEBA) trust for the purpose of
funding annual PRB accruals. 1 Furthermore, FCSO’s accounting practice, approved by CMS,
uses segmented accrual accounting for PRBs.

In resolution of our prior PRB segmentation audit (A-07-06-00225, issued December 7, 2006),
FCSO executed a PRB closing agreement with CMS to establish a final settlement of the
January 1, 2005, Medicare segment PRB asset base. As required by its accounting practice,
FCSO also updated the Medicare segment’s PRB assets to January 1, 2008.

Federal Regulations

The FAR states that accrual accounting may be used to determine allowable PRB costs if the
costs are measured and assigned (actuarially determined) in accordance with generally accepted
accounting principles. FAR 31.205-6(o) requires that PRB accrual costs be funded in a
dedicated trust fund, such as a VEBA trust. The FAR also states that allowable costs must be
funded by the time set for filing the Federal income tax return or any extension thereof and must
comply with the applicable standards promulgated by the CAS Board. In addition, FAR
31.205-19 requires self-insurance charges to be measured, assigned and allocated in accordance
with CAS 416.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether FCSO correctly:

    •   implemented the January 1, 2005, Medicare segment PRB asset base established by the
        executed PRB closing agreement with CMS, and


1
 FCSO participates in employee benefit plans, such as the VEBA trust, of its parent company, Blue Cross Blue
Shield of Florida, Inc. Costs associated with this VEBA trust are self-insurance charges as defined by the FAR.


                                                         1
   •    updated the Medicare segment’s PRB assets from January 1, 2005, to January 1, 2008.

Scope

We reviewed FCSO’s implementation of the PRB closing agreement, identification of the
Medicare segment, and update of Medicare segment PRB assets from January 1, 2005, to
January 1, 2008.

Achieving our objective did not require us to review FCSO’s overall internal control structure.
We reviewed internal controls relating to the PRB closing agreement, identification of the
Medicare segment, and the update of the Medicare segment PRB assets.

We performed fieldwork at FCSO’s office in Jacksonville, Florida, during February and
March 2009.

Methodology

To accomplish our objective, we did the following:

   •     We reviewed the applicable portions of the FAR, CAS, and Medicare contracts.

   •     We reviewed Closing Agreement No. PRB-01 executed between CMS and FCSO. We
         used this information to identify the Medicare segment PRB assets as of
         January 1, 2005.

   •     We reviewed the information provided by FCSO’s actuarial consulting firm, which
         included the VEBA assets, PRB obligations, service costs, contributions, claims
         reimbursed, investment earnings, and administrative expenses. We used this
         information to calculate the Medicare segment PRB assets.

   •     We reviewed the PRB plan documents, VEBA trust transaction documents, and PRB
         actuarial valuation reports. The valuation reports included Statement of Financial
         Accounting Standards (SFAS) 106 information. We used this information to calculate
         the Medicare segment PRB assets.

   •     We updated the segment asset bases for changes in the value attributable to
         contributions, income, benefit payments, and expenses. We also updated the permitted
         unfunded accruals for assumed interest earnings, new portions of permitted unfunded
         accruals, and direct benefit payments.

   •     We interviewed FCSO staff responsible for determining the methodology that FCSO
         used in its identification of the Medicare segment.

   •     We reviewed FCSO accounting records to verify the segment identification.



                                                2
   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment PRB assets as of January 1, 2008.

   •    We reviewed and accepted the CMS Office of the Actuary’s methodology and
        calculations.

We performed this review in conjunction with our audit of FCSO’s PRB costs claimed for
Medicare reimbursement (A-07-09-00315) and used the information obtained during that audit in
this review. We also used information obtained in conjunction with our audit of FCSO’s pension
segmentation (A-07-09-00311). That information included the identification of the Medicare
segment and the Medicare segment participants.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

FCSO correctly implemented the January 1, 2005, Medicare segment PRB asset base established
by the executed PRB closing agreement with CMS. However, FCSO did not correctly update
the Medicare segment’s PRB assets from January 1, 2005, to January 1, 2008. As part of its
accounting practice, FCSO was required to update the Medicare segment’s PRB assets.
However, FCSO made errors in its update computations. As a result, FCSO overstated the
Medicare segment PRB assets as of January 1, 2008, by $835,995. In addition, contrary to its
stated methodology, FCSO did not make adjustments for participants who transferred into and
out of the Medicare segment. Although we determined that this error had no material effect
during our review period, future asset updates may be materially misstated if FCSO does not
properly adjust for transfers.

Appendix A presents details on the Medicare segment’s PRB assets from January 1, 2005, to
January 1, 2008, as determined during our audit. The following table summarizes the differences
between our update and FCSO’s update of these assets.

                                 Summary of Audit Adjustments
                                                   Per Audit             Per FCSO       Difference

Contributions and Transferred Prepayment Credits       $ 10,019,114     $ 10,729,108     ($709,994)
Earnings, Net Expenses                                    2,532,833        2,658,834      (126,001)
 Overstatement                                                                           ($835,995)




                                               3
POSTRETIREMENT BENEFIT CLOSING AGREEMENT

FCSO executed a PRB closing agreement with CMS to establish a final settlement of the
January 1, 2005, Medicare segment PRB asset base. FCSO correctly implemented the
January 1, 2005, closing agreement Medicare segment PRB asset base in its update of Medicare
segment PRB assets.

UPDATE OF MEDICARE SEGMENT POSTRETIREMENT BENEFIT ASSETS

Federal Requirements

FCSO elected to use segmented accrual accounting for PRBs as permitted by CAS 416-50(b)(2);
CMS approved this election. Because FCSO elected this accounting practice, we applied the
accrual methodologies of SFAS 106 separately for the Medicare and “Other” segments.

In addition, we used CAS 416-50(a)(1)(v)(C) to address contributions in excess of the PRB cost
assigned to the period. Accordingly, contributions in excess of the PRB cost are recognized as
prepayment credits. Because the unallocable excess funding is treated as a deposit (an
investment of the contractor) in accordance with CAS 416-50(a)(1)(iv), it is accumulated at the
long-term rate of return assumption until applied to future period costs. Prepayment credits that
have not been applied to fund PRB costs are excluded from the value of assets used to compute
PRB costs.

Contributions and Transferred Prepayment Credits Overstated

FCSO overstated contributions and transferred prepayment credits for the Medicare segment by
$709,994. The overstatement occurred because FCSO used an incorrect methodology to transfer
prepayment credits to the Medicare segment. To determine the correct update of the Medicare
segment’s PRB assets, we limited each year’s transferred prepayment credit to the beginning of
year CAS PRB cost assigned to that year.

Earnings, Net Expenses Overstated

FCSO overstated net investment earnings by $126,001 for the Medicare segment. The
overstatement occurred because FCSO used incorrect amounts for transferred prepayment credits
to update the Medicare segment asset base. The overstatement of net investment earnings led to
a $126,001 overstatement of the Medicare segment assets.

Participant Transfers

As part of its segmented PRB accrual accounting practice, FCSO’s stated methodology was to
make adjustments for participants who transferred into and out of the Medicare segment.
However, FCSO’s asset update did not contain such adjustments. Although we determined that
this error had no material effect during our review period, future asset updates may be materially
misstated if FCSO does not properly adjust for transfers.



                                                4
RECOMMENDATIONS

We recommend that FCSO:

   •   decrease Medicare segment PRB assets by $835,995 as of January 1, 2008, and

   •   make adjustments for participant transfers in future updates.

AUDITEE COMMENTS

In written comments on our draft report, FCSO agreed with our finding and stated that it will
implement our recommendations. FCSO’s comments are included in their entirety as
Appendix B.




                                                5
APPENDIXES
                                                                                                                      Page 1 of2

       APPENDIX A: STATEMENT OF MARKET VALUE OF POSTRETIREMENT BENEFIT ASSETS 

                          FOR FmST COAST SERVICE OPTIONS, INC., 

                     FOR THE PERIOD JANUARY 1,2005, TO JANUARY 1, 2008 




                 Description               I I          Total Company        I    "Other" Segment       I   Medicare Segment

  Assets January 1, 2005                      II             $44,248,709                $38,904,472                  $5,344,237

  Transferred Prepayment Credits              21                                          (2,765,630)                 2,765,630
  Contributions                               31               19,807,852°                19,807,852
  Claims Reimbursed                           41               (4,515,938                 (3,423,752)                (1,092,186°
  Investment Return                           51                2,504,082                  2,051,724                    452,358

  Assets January 1, 2006                                       62,044,705    I            54,574,666    I             7,470,039

  Transferred Prepayment Credits                                                          (3,499,401                  3,499,401
  Contributions                                                16,728,771°                16,728,771
  Claims Reimbursed                                            (4,728,771)                (3,631,285)                          °
                                                                                                                     (1,097,486)
  Investment Return                                             7,192,060                  5,930,718                  1,261,342

  Assets January 1,2007 	                                      81,236,765    I            70,103,469    I            11,133,296

  Transferred Prepayment Credits                                                          (3,754,083)                 3,754,083
  Contributions                                                11,000,000°                11,000,000
  Claims Reimbursed                                            (6,312,333)                (4,842,678)                          °
                                                                                                                     (1,469,655)
  Investment Return                                             4,490,988                  3,671,855                    819,133

  Assets January 1,2008                                      $90,415,420     I          $76,178,563     I          $14,236,857
  Per FCSO                                    61             $90,415,420     I          $75,342,568     I          $15,072,852
  Asset Variance                              71                      $0     I             $835,995     I            ($835,995)
                                                                             I	                         I

  FOOTNOTES

.lL We obtained Total Company assets from postretirement benefit (PRE) actuarial valuation reports. We obtained the
  Medicare segment PRE assets as of January 1, 2005, from Closing Agreement PRB-Ol. The Centers for Medicare and
  Medicaid Services and First Coast Service Options, Inc. (FCSO), entered into and executed this closing agreement in
  order to establish a final settlement of the January 1, 2005, Medicare segment PRE asset base. The amOllllts shown for
  the "Other" segment represent the difference between the Total Company and the Medicare segment. All PRE assets are
  shown at market value.

21 	A prepayment credit represents the accwnulated value of premature funding from the previous year(s) and is available as
    of the first day of the plan year to cover, or help cover, the cost assigned to that period. Prepayment credits are accounted
    for as a part of the "Other" segment assets and are transferred to the Medicare segment as of the first day of each plan
    year to cover the cost assigned to that year.
                                                                                                                     Page 20f2


3/ We obtained Total Company contribution amOllllts from PRE actuarial valuation reports and trust statements. We
   allocated Total Company contributions to the Medicare segment based on the ratio of the Medicare segment current­
   period fllllding requirement divided by the Total Company cWTent-period fllllding requirement after the application of any
   accwnulated prepayment credits. Contributions in excess of the current-period funding requirement were treated as
   prepayment credits and aCcOllllted for in the "Other" segment lllltil needed to flllld PRE costs in the future. The amOllllts
   represent fllllds deposited in the trust.

41 	 Claims reimbursed represent the amOllllts previously paid from corporate fllllds and now reimbursed by the trust. We
     obtained Claims Reimbursed amOlmts from docwnents provided by FCSO and prepared by its actuarial consulting finn.

5/ We obtained investment earnings from the PRE actuarial valuation reports and docwnents prepared by FCSO 's actuarial
   consulting finn. We allocated net investment earnings based on the ratio of the segment's weighted average value
   (WAV) of assets to Total Company WAY of assets.

6/ We obtained asset amounts as of January 1,2008, from docwnents prepared by FCSO's actuarial consulting finn.

7/ The asset variance represents the difference between our calculation of Medicare segment assets and FCSO's Medicare
   segment assets.
                               APPENDIX B: AUDITEE COMMENTS 





                                                                                              CA#S/
                                                                                    ~""-'~-7
                                                                                                    MEDICARE


                                                                                                    Sandy Coston
                                                                                                   CEO & President
                                                                                      First Coast Service Options. loc.
                                                                                            Sandy.Coaton Ok:so.oo:n


April 8, 2010


Mr. Patrick J . Cogley
Regiooallnspectof General for Aud it Services
Oepanmenlol Health and Human Services
Office 01 Inspector General
Office 01 Audit SeNices, Region VI1
601 Each 12"' Street. Room 0429
Kansas City, Missouri 64106

Relerence: A·07·09-00314

Dear MI. Cogley:

This letter is in response to the Department 01 Health and Human Services, Office 01 Inspector General's draft
report for the review of First Coast Service Options, Inc.'s segmentation of posHe1irem enl benelil assets for the
period January 1, 200510 January 1, 2008.

We agree with the report finding regarding the overstatement of Medicare segment assets and will lake Ihe
following action to ensure the report recommendation is implemented:

              •    Decrease the Medicare segment post relirement assets by $835,995 as of January I , 2008; and
              •    Adjust participant transfers in future periods.

We appreciate the opportunity to review and provide comments prior to the release 01 the final report. It you have
any q uestions regarding our response, please contact Gregory England at 904-791-8364.

Sincerely.


 ;I""dtf' (;,~
Sandy Coston

cc: Jonathan Hogan, VP & CFO, First Coast SeNice Options, Inc.
    Gregory England, Director 01 Internal Audit, First Coast Service Options, Inc.
    Brenda Francisco, Director 01 Medicare Reporting, First Coast Service Oplions, Inc.
    Cheryl Mose, VP & Corporate Controll er, Blue Cross Blue Shield 01 Florida, Inc.
    Jay Pinkerton, VP , Aon Consulting




532 AiV<1'sid-o Avenue , Jacksonville. Florida 32202
P.O. Sox 45274, Jad<sonville, Fk><1da 32232-5274 

Tel: 904·791·8409 

Fax: 904-361-<l372 

_.Icso.com 

